     Memorandum from the Office of the Inspector General



     May 13, 2009

     Kimberly S. Greene, WT 7B-K

     FINAL REPORT – INSPECTION 2008-12007 – DISTRIBUTOR REVIEW OF MONROE
     COUNTY ELECTRIC POWER ASSOCIATION



     Attached is the subject final report for your review and action. Your written comments,
     which addressed your management decision and actions planned or taken, have been
     included in the report. Please notify us when final action is complete.

     Information contained in this report may be subject to public disclosure. Please advise us
     of any sensitive information in this report that you recommend be withheld.

     If you have any questions, please contact Richard C. Underwood, Project Manager, at
     (423) 785-4824 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
     (423) 785-4810. We appreciate the courtesy and cooperation received from your staff
     during the audit.



(for) Robert E. Martin
      Assistant Inspector General
       (Audits and Inspections)
      ET 3C-K

     RCU:JP
     Attachment
     cc (Attachment):
           Peyton T. Hairston Jr., WT 7B-K
           Tom D. Kilgore, WT 7B-K
           John E. Long Jr., WT 7B-K
           Richard W. Moore, ET 4C-K
           Emily J. Reynolds, OCP 1L-NST
           John M. Thomas III, WT 4B-K
           John G. Trawick, WT 3D-K
           OIG File No. 2008-12007
                  Tennessee Valley Authority
                  Office of the Inspector General


Inspection Report


DISTRIBUTOR REVIEW
OF MONROE COUNTY
ELECTRIC POWER
ASSOCIATION



Project Manager               Inspection 2008-12007
Rick Underwood                         May 13, 2009
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 1

FINDINGS ......................................................................................................... 2

   CONTRACT COMPLIANCE ISSUES ............................................................... 3

   DISTRIBUTOR INTERNAL CONTROL ISSUE ................................................ 4

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 4

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 6

RECOMMENDATIONS .................................................................................. 8


APPENDICES
A. LETTER DATED APRIL 30, 2009, FROM BARRY ROWLAND TO
   ROBERT E. MARTIN

B. MEMORANDUMS DATED APRIL 30, 2009, AND MAY 12, 2009, FROM
   KIMBERLY S. GREENE TO ROBERT E. MARTIN




Inspection 2008-12007
                      TVA Office of                            May 2009
                      the Inspector                            Inspection 2008-12007
                                                               Monroe County Electric Power
                      General
                                                               Association
 Why the OIG Did This Review                                   What the OIG Found

As part of the annual inspection plan, the OIG                 Our review of Monroe found no material issues related to (1) the
performed a review of Monroe County Electric Power             proper reporting of electric sales and (2) nondiscrimination in
Association (Monroe) which is a distributor for TVA            providing electricity to members of the same rate class. However,
power based in Amory, Mississippi. Annual revenues             we found improvements were needed in the following areas:
were approximately $18.4 million in fiscal year 2008.
TVA relies on distributors to self report customer             •   Contract compliance issues regarding Monroe's accounting
usage and subsequently the amount owed to TVA                      practices and implementation of customer contracts. Monroe's
(Schedule 1). Customers are generally classified as
                                                                   contract with TVA requires (1) the distributor's accounting
residential, commercial, and manufacturing. Within
                                                                   practices to follow Federal Energy Regulatory Commission
these classifications are various rate classes based
                                                                   (FERC) guidelines and (2) Monroe to have contracts with all
on the customer type and usage. 
                                                                   customers whose demand is greater than 50 kW. Our review
                                                                   found Monroe's accounting for prepaid expenses did not
The objective of the review was to determine
compliance with key provisions of the power contract               conform to FERC guidelines and required contracts for
between TVA and Monroe including (1) proper                        Monroe customers with demand greater than 50 kW were not
reporting of electricity sales by customer class to                in place for all customers.
facilitate proper revenue recognition and billing by
TVA; (2) nondiscrimination in providing electricity to         •   Monroe's internal controls could be improved by maintaining
members of the same rate class; and (3) use of                     an inventory of installed meters for comparison to customer
revenues, including any surplus, for approved                      billings to identify discrepancies. Subsequent to our site visit,
purposes such as operating expenses, debt service,                 Monroe entered into an agreement with Central Service
tax equivalent payments, and reasonable reserves for               Association for implementation of a meter management
renewals, replacements, and contingencies.                         system. This action addressed our concerns.

                                                               In addition, we found Monroe had more than enough cash on hand
What the OIG Recommends                                        to fund planned capital expenditures and provide a cash reserve.
                                                               While TVA has established guidelines to determine if a distributor
We recommend the Chief Financial Officer (CFO)                 has adequate cash reserves (cash ratio of 5 to 8 percent), TVA
take action to ensure Monroe complies with contract            has not established guidelines to determine if a distributor's cash
provisions regarding accounting practices and formal           reserves are excessive.
customer contracts. In addition, the CFO should
(1) provide additional guidance on proper use of               •   As of June 30, 2008, Monroe reported about $2.9 million in
funds, (2) review its calculation of the cash ratio for            cash and $4.9 million in the TVA Power Invoice Prepayment
distributors with prepayment power accounts,                       Program and planned capital expenditures of about $5 million
(3) develop criteria to be used in determining whether             which left a cash reserve of about $2.7 million.
a distributor's cash reserves are excessive, and
(4) provide guidance on the frequency of meter                 Finally, we also identified opportunities to enhance TVA oversight
testing.                                                       of the distributors. Specifically, TVA (1) does not include cash
                                                               used to prepay for TVA power in the calculation of the cash ratio
TVA and Monroe management generally agreed with                for rate review purposes and has not defined criteria for
and are taking actions to address the                          determining when a distributor's cash reserves are excessive,
recommendations. See Appendices for complete                   (2) has not provided definitive guidance for distributors on what
responses.                                                     constitutes prudent expenditures, and (3) has not adequately
                                                               defined how often meters should be tested by the distributors.
For more information, contact Richard Underwood, Project
Manager, at (423) 785-4824 or Gregory Jaynes, Deputy
Assistant Inspector General, Inspections, at (423) 785-4810.



                                                                                                                     Page i
Office of the Inspector General                                         Inspection Report


BACKGROUND
The Monroe County Electric Power Association (Monroe) is a distributor for
Tennessee Valley Authority (TVA) power based in Amory, Mississippi, with
revenues from electric sales of approximately $18.4 million in fiscal year
(FY) 2008. TVA relies on distributors to report customer usage and subsequently
the amount owed to TVA (Schedule 1). Customers are generally classified as
residential, commercial, and manufacturing. Within these classifications are
various rate classes based on the customer type and usage. Table 1 shows the
customer mix for Monroe as of June 2008.

                         Monroe's Customer Mix as of June 2008

                                      Number of                          Kilowatt
     Customer Classification          Customers         Revenue         Hours Sold
 Residential                                 8,869        $13,414,761    162,282,513
 General Power – 50 kW & under               2,831          2,126,619     19,868,222
 (Commercial)
 General Power – Over 50 kW                     93          2,225,199     24,260,495
 (Commercial or Manufacturing)
 Street and Athletic                            44             36,594        467,182
 Outdoor Lighting                                             589,713      5,522,028
  Total                                     11,837        $18,392,886    212,400,440
                                                                              Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Monroe, like many other distributors, outsources its billing and
invoice processing to a third-party processor, Central Service Association (CSA).
Monroe uses CSA systems to establish and set up new customers, input
customer meter information, perform the monthly billing process, and execute
customer account maintenance. Additionally, CSA provides Monroe with the
management reporting (e.g., exception reports) designed to ensure the accuracy
and completeness of the customer invoice and the purchased power invoice
(Schedule 1) to TVA. All other accounting and finance responsibilities are done
by Monroe which has a Board of Directors providing oversight and a general
manager and treasurer managing the daily activities. Monroe does not have any
nonelectric business interests.


OBJECTIVE, SCOPE, AND METHODOLOGY
This inspection was initiated as a part of our annual workplan. The objective was
to determine compliance with key provisions of the power contract between TVA
and Monroe including:

•   Proper reporting of electricity sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
Inspection 2008-12007                                                              Page 1
Office of the Inspector General                                        Inspection Report


•   Nondiscrimination in providing electricity to members of the same rate class.
•   Use of revenues, including any surplus, for approved purposes such as:

    − Operating expenses;
    − Debt service;
    − Tax equivalent payments; and
    − Reasonable reserves for renewals, replacements, and contingencies.

To achieve our objective, we:

•   Documented and assessed the controls over new customer account setup
    and master file maintenance.
•   Documented and tested the procedures and controls in place to ensure
    proper sales cutoff and the reconciliation of sales to the general ledger.
•   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
•   Determined through inquiry and review of documentation whether Monroe
    had any nonelectric, system-related business interests supported by electric
    system funds.
•   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
•   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.

The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted in September and October 2008. This review was
conducted in accordance with the "PCIE Quality Standards for Inspections."


FINDINGS
Our review of Monroe found no material issues related to (1) the proper reporting
of electric sales and (2) nondiscrimination in providing electricity to members of
the same rate class. However, we found improvements were needed in the
following areas: (1) contract compliance issues regarding Monroe's accounting
practices and implementation of customer contracts and (2) Monroe's internal
controls surrounding the customer setup process.

In addition, we found Monroe had more than enough cash on hand to fund
planned capital expenditures and provide a cash reserve. While TVA has
established guidelines to determine if a distributor has adequate cash reserves
(cash ratio of 5 to 8 percent), TVA has not established guidelines to determine if

Inspection 2008-12007                                                            Page 2
Office of the Inspector General                                      Inspection Report


a distributor's cash reserves are excessive. Finally, as we explain herein, there
are significant opportunities to enhance TVA oversight of the distributors.

CONTRACT COMPLIANCE ISSUES
Our review noted two areas where Monroe was not meeting the requirements of
the power contract with TVA. Specifically, we found (1) current accounting
practices resulted in a prepaid expense recorded as cash, and (2) contracts were
not in place for all customers whose power demand exceeds 50 kW in a month.
Below is further discussion on these items.

Accounting Practices
We noted two instances in which Monroe's accounting records did not conform to
Federal Energy Regulatory Commission (FERC) guidance. Under the contract,
the distributor is required to keep the books of the electric system according to
the Federal Power Commission Uniform System of Accounts (USofA). The
Federal Power Commission was replaced by FERC in 1977 under the
Department of Energy Organization Act. The FERC USofA requires the utility
keep its accounts on the accrual basis. Specifically, we found revenue was not
recognized in the month in which it was earned, and a prepayment for power is
recorded as a cash-temporary investment instead of a prepaid expense.

Revenue
According to the FERC USofA, utilities' accounting records should include all
known transactions of appreciable amount which affect the accounts. If bills for
revenue earned have not been sent out during the accounting period, the utility is
to estimate amounts due and make appropriate adjustments when the bills are
sent.

Monroe recognizes revenue in the month it is billed rather than earned. As a
result, the current month will contain revenue that should have been recognized
(when service was provided) in a previous period. While Monroe does not have
a process to accrue revenue earned but not billed for a given month and then a
process to reverse the entry in the following period, their external auditor does
make annual adjustments to recognize any material amounts of unbilled revenue.
As a result, we make no recommendation.

Prepayment
Monroe's accounting records show the TVA Power Invoice Prepayment account
as a cash-temporary investment account when it should be recorded as a
prepaid expense. Under TVA's Power Invoice Prepayment Program, a distributor
could prepay its current or future amounts due for power invoice(s). In return,
TVA provides the distributor with an early payment credit which will accrue on the
distributor's account daily. The interest rate used in calculating the early
payment credit to be applied to the account changes monthly. According to the
FERC USofA, when payments are made in advance, the amount applicable to
future periods should be charged to an account titled Prepayments and spread
over the periods to which the amounts are applicable by credits to the
Inspection 2008-12007                                                          Page 3
Office of the Inspector General                                                                 Inspection Report


Prepayments account and charges to the accounts appropriate for the
expenditure.

Customer Contracts
Under Monroe's contract with TVA, all customers that exceed 50 kW monthly are
required to sign a formal contract. According to Monroe management, this
requirement was not enforced by TVA prior to its request for the distributor to
provide a Statement on Auditing Standards (SAS) 70 Type II Report assessing
the design and effectiveness of the distributors' internal controls over end-use
billing revenue. Subsequently, Monroe management requested their customers
with demand greater than 50 kW to complete a contract; however, Monroe did
not receive a signed copy back from all customers.

DISTRIBUTOR INTERNAL CONTROL ISSUE
We noted Monroe's internal controls could be strengthened during the customer
setup process to improve metering. Specifically, the process could be enhanced
to ensure each meter (and the type of meter for nonresidential customers)
installed is associated with an active customer in the system. According to
Monroe management, the meter inventory is not tracked when it leaves the
warehouse. In addition, a monitoring report could be created to periodically
compare active customers to a meter which would ensure an active customer is
appropriately metered and billed.

Subsequent to our site visit, Monroe entered into an agreement with CSA for
implementation of a meter management system. This system provides
computerized system management of all meters and allows Monroe to identify all
meters they own as Active, Vacant, New or Inactive. The new system also has
reporting capabilities which allow Monroe to monitor and manage the meters.
Monroe's subsequent actions address the control issues identified during our site
visit.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses; (2) debt service;
(3) tax equivalent payments; and (4) reasonable reserves for renewals,
replacements, and contingencies. While TVA has established guidelines to
determine if a distributor has adequate cash reserves (cash ratio1 of 5 to
8 percent), TVA has not established guidelines to determine if a distributor's cash
reserves are excessive.




1
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash equivalents
                            Total Variable Expenses (Operations and Maintenance + Purchased Power)
Inspection 2008-12007                                                                                      Page 4
Office of the Inspector General                                                           Inspection Report


Our review of Monroe's financial status and planned capital projects found
Monroe had more than enough cash on hand to fund planned capital
expenditures and provide a cash reserve. As of June 30, 2008, Monroe had
about $2.9 million in its actual cash accounts and approximately $4.9 million in its
TVA Power Invoice Prepayment account which totaled about $7.8 million.
Table 2 shows information about plans for major capital expenditures obtained
from Monroe's general manager and our review of Monroe's Board of Director's
meeting minutes.

                          Monroe's Planned Capital Expenditures

                                                                                Project      Planned
                       Capital Expenditure Plans                                 Cost       Completion
Automatic Reading Meters                                                      $1,050,0002          CY 2008
New Substation at Caledonia (Caldwell Road Substation)                         $2,500,000          CY 2010
Modify the Existing Caledonia Substation to Serve Caledonia Energy             $1,000,000          Unknown
Partners
U S Highway 25 Four Lane Project                                                 $500,000          Unknown

Total Cost                                                                     $5,050,000
                                                                                                    Table 2

When compared to Monroe's capital expenditure plans for the foreseeable future,
the balance in the TVA Power Invoice Prepayment account and Monroe's cash
accounts was enough to pay for these items and leave about $2.7 million as a
reserve, as shown in Table 3. Table 3 also shows Monroe's cash ratio
percentage was about 47.4 percent before accounting for planned capital
expenditures and 16.7 percent after accounting for them.

      Monroe's Cash Accounts Compared to Planned Capital Expenditures

                                     Cash and Cash
                                    Equivalents Plus   Planned Capital Reserve After Planned
                                  Prepayment Account Expenditures       Capital Expenditures
                                            $7,790,982      $5,050,000              $2,740,982
FY 2008
Cash Ratio Percentage                             47.4%                                              16.7%
                                                                                                    Table 3

Discussions with Monroe's management indicated the operating philosophy of
the Monroe board and management was to use a conservative, debt-averse
approach. According to TVA records, over the past five years, Monroe has been
approved for rate increases of 1 percent in 2005 and 0.5 percent in 2007.
Table 4 shows the rate increases received by Monroe and the cash position and
cash ratio at June 30 prior to the effective date of the rate increase.


2
    As of June 30, 2008, $450,000 had already been expended for the $1,500,000 total cost of the
    changeover to automatic reading meters.
Inspection 2008-12007                                                                                Page 5
Office of the Inspector General                                                                Inspection Report


               Monroe's Rate Increases, Cash Position, and Cash Ratio

                                Cash and Cash Equivalents3
                                       and Cash Ratio                                 Rate Increase
  Cash on Hand                                     Without
Equivalent to an 8%            With Prepay         Prepay                   Additional      Effective
    Cash Ratio                  Account           Account                   Revenue Percent   Date
    $1,155,124                 $7,511,268        $4,399,908                 $150,000   1.0% 10/1/2005
                                  (CR = 52%)             (CR = 30.5%)
        $1,293,671              $7,746,958              $3,060,216            $83,616       0.5%     4/1/2007
                                (CR = 47.9%)             (CR = 18.9%)
                                                                                                        Table 4

Coupled with this debt-averse philosophy, distributors consider cash reserves as
a hedge against the risks of unforeseen costs from an aging infrastructure (e.g.,
equipment failure), potential loss of revenue from the economic impact on
commercial and industrial customers, and unpredictable weather. Examples of
weather events4 TVA distributors have incurred include damage from (1) the
recent January 27, 2009, ice storm in Kentucky and Tennessee where about
130,000 of TVA distributor consumers lost their electricity and (2) tornados and
the impact of tropical storms, such as the 2005 damage to Mississippi systems
resulting from hurricane Katrina.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA's oversight of the distributors.
Specifically, we noted TVA (1) does not include cash used to prepay for TVA
power in the calculation of the cash ratio for rate review purposes, and has not
defined criteria for determining when a distributor's cash reserves are excessive,
(2) has not provided definitive guidance for distributors on what constitutes
prudent expenditures, and (3) has not adequately defined how often meters
should be tested by the distributors.

Distributor Cash Position
We noted two issues that TVA needs to address related to the assessment of a
distributor's cash position. Specifically, TVA (1) does not include cash used to
prepay for TVA power in the calculation of the cash ratio for rate review purposes
and (2) has not defined criteria for determining when a distributor's cash reserves
are excessive.

Use of Cash Prepaid to TVA for Power in the Cash Ratio Calculation
Monroe's cash ratio was about 13.8 percent and 17.6 percent in FYs 2007 and
2008, respectively. These calculations do not include the balance in the

3
    The cash and cash equivalents and cash ratio were computed based on information from Monroe's
    annual report as of June 30 prior to the effective date of the rate increase.
4
    After a severe weather event, utilities launch massive and costly round-the-clock restoration efforts. In
    addition to costs for miles of new wire, new poles, new transformers, and their own crews, utilities often
    have to pick up the bill for other utility crews providing assistance in the restoration effort.
Inspection 2008-12007                                                                                    Page 6
Office of the Inspector General                                      Inspection Report


previously discussed TVA Power Invoice Prepayment account. From an
accounting perspective, the Power Invoice Prepayment account is considered
restricted because, once deposited, it cannot be withdrawn. By definition, TVA
does not include restricted cash in the cash ratio calculation. However, although
technically restricted, distributors can only use these funds to pay monthly power
bills which provide the same benefit of nonrestricted cash resources.

Prepayment deposits could allow distributors to reduce their overall unrestricted
cash balances while receiving the benefit of a market-based interest return from
TVA. Without including the prepayments or a portion of the prepayments, a
distributor's cash position may appear lower than it actually is which could impact
the financial analyses of the distributor during the rate review process. Table 5
shows the effect on the cash ratio of including all or a portion of the prepayment
account in the cash ratio percentage calculation.

            Alternative Cash Ratio Percentage Calculations for Monroe

                                                        FY 2007       FY 2008
                                                       Cash Ratio    Cash Ratio
 Cash only                                               13.8%          17.6%
 Cash plus all of the prepayment account                 40.7%          47.4%
 Cash plus all of the prepayment account less one
 month's average power cost                              33.7%          40.0%
                                                                           Table 5

Criteria for Evaluating When a Distributor's Cash Is Excessive
While TVA has established guidelines to determine if a distributor has adequate
cash reserves (cash ratio of 5 to 8 percent), TVA has not established guidelines
to determine if a distributor's cash reserves are excessive. TVA uses the cash
ratio as one of the factors in determining if a rate increase is warranted for a
distributor. However, the lack of defined criteria identifying when a distributor
may have more than adequate cash on hand could negatively impact TVA's
analysis regarding whether (1) a distributor's rates should be lower or (2) an
additional rate review may be warranted.

No Policies Defining Appropriate Expenditures
We noted TVA could improve the controls over the use of electric system funds
by providing more definitive guidance to the distributors. While reviewing the
proper use of electric system revenue, we noted there were no definitive policies
on permitted expenditures (charity, scholarships, etc.) or investments/account
establishment. TVA has allowed distributor management and distributor Board's
discretion in the decision-making process for determining what qualifies as
operational expenditures. Additional guidance in this area by TVA would
decrease the likelihood of misinterpretation of what constitutes a reasonable use
of electric funds. In discussions with the TVA Vice President, Strategy, Pricing,
and Contracts, actions to address recommendations in a previous review of
TVA's role as a regulator (Inspection 2005-522I) include the development of
distributor guidance pertaining to the use of electric system funds.
Inspection 2008-12007                                                           Page 7
Office of the Inspector General                                                            Inspection Report


Meter Accuracy
TVA could provide more definitive guidance regarding the frequency of meter
testing for distributors. Under the power contract with Monroe, Part 21 (Meter
Tests) of the Schedule of Rules and Regulations states: "Distributor will, at its
own expense make periodical tests and inspections of its meters in order to
maintain a high standard of accuracy." Additional guidance in this area could
lead to (1) timely identification of inaccurate meters, (2) timely correction of
errors, and (3) a uniform testing frequency of meters across distributors. This
could result in (1) additional revenue collected by the distributor and (2) reduced
distribution loss payments5 to TVA. The reduction of these payments and the
collection of additional revenues by the distributor, if significant, could reduce the
need for future rate increases by distributors. In addition, the distributor would be
reporting more accurate usage and demand information to TVA (both from a
volume and billing rate classification standpoint) for revenue collection and future
rate setting purposes. In meter testing conducted by Monroe in 2007, 2 of the
15 meters tested (about 13 percent) were found to have problems which could
impact the accuracy of the meter.


RECOMMENDATIONS
We recommend the Chief Financial Officer (CFO) work with Monroe to improve
compliance with the contract. Specifically, Monroe should:

1. Change accounting practices to be in accordance with FERC to accurately
   record the prepayment of power as a prepaid expense.

      Monroe's Response  Monroe management stated to their knowledge they
      were following TVA's recommendation regarding the accounting procedure for
      the Power Invoice Prepayment Program. They will discuss the accounting
      procedure with TVA and will be willing to make any necessary changes in the
      future as to how they account for the Power Invoice Prepayment Program.
      The report was clarified and the recommendation modified to reflect additional
      information pertaining to the recognition of unbilled revenue. See Appendix A
      for Monroe's complete response.



5
    Distribution loss payments are calculated using a distribution loss factor (DLF) which is the difference
    between the kWhs used (as reported by the distributor on Schedule 1) and the kWhs delivered to the
    distributor by TVA. Each month, the 12-month rolling average of the DLF is multiplied by the "Total
    Demand and Energy Charges" for the month and added to the amount owed to TVA by the distributor on
    Schedule 1. The "Total Demand and Energy Charges" includes charges for both kWh and kW demand.
    There is not a mechanism to perform the same calculation for kW demand as for kWh. As a result, TVA's
    practice is to also apply the DLF which is based on kWh to the kW demand charges. In this review, we
    did not try to determine if there is a more accurate method.
    On an annual basis, TVA and the distributor perform a "Distribution Loss Trueup." This trueup uses the
    preceding 12-month average of the DLF multiplied by the total of the "Total Demand and Energy Charges"
    for the 12-month period and then subtracts the monthly estimated Distribution Loss Charges paid to TVA
    to determine if the distributor owes additional money to TVA or if a credit is due to the distributor.
Inspection 2008-12007                                                                                Page 8
Office of the Inspector General                                        Inspection Report


    TVA Management's Comments  The CFO agreed with our
    recommendation and stated TVA will work with each distributor to ensure
    energy prepayments are classified as a prepaid expense in the distributor's
    FY 2009 annual financial statements. Target completion date is December
    2009. See Appendix B for TVA's complete response.

    Auditor's Response  The Office of the Inspector General (OIG) concurs
    with the planned actions.

2. Review management reports listing customers that are above 50 kW hours
   without a contract and work with these customers to obtain signed contracts.

    Monroe's Response  Monroe agreed the contract with TVA required
    contracts for customers with demand over 50 kW and without a contract.
    Monroe stated that this contract requirement had not been enforced by TVA
    prior to the SAS 70 Type II audit for June 30, 2006. At that point, Monroe
    began obtaining contracts and currently have obtained contracts for
    approximately 82 percent of the customers that are required to have them.
    They also have restarted the process to obtain contracts from the remaining
    18 percent of customers. See Appendix A for Monroe's complete response.

    TVA Management's Comments  The CFO agreed the Schedule of Rates
    and Charges requires distributors to obtain contracts with all customers
    whose actual or contract demand exceeds 50 kW. However, the CFO did not
    agree with our recommendation that Monroe should review management
    reports listing customers that are above 50 kW hours without a contract and
    work with these customers to obtain signed contracts. Rather, TVA
    management finds that the contract size threshold of 50 kW was established
    in 1963, and the relative customer size in 2009 versus 1963 is very different.
    Likewise, requiring contracts with small commercial customers is a time-
    consuming and difficult task which may provide little benefit for distributors or
    the TVA system. TVA management will recommend to the Board that a new
    and higher threshold be established as part of the rate change process with
    the distributors. When the rate change is put into effect, all retail customers
    above the new threshold will be expected to have executed contracts. Target
    completion date will coincide with the rate change efforts that are currently
    under way with the distributors and is expected to be in place by October
    2010. See Appendix B for TVA's complete response.

    Auditor's Response  The OIG concurs with the planned actions.

The CFO, in collaboration with the TVA Board of Directors where necessary,
should:

3. Develop a comprehensive guide on permitted expenditures under the use of
   electric system revenues provision and expense accrual for distributor
   management to use going forward.

Inspection 2008-12007                                                            Page 9
Office of the Inspector General                                       Inspection Report


    TVA Management's Comments  The CFO agreed it is appropriate to look
    at permitted expenditures in the context of the use of revenues provision in
    Section 6 of the wholesale power contract with the distributors. TVA
    management is exploring with the TVA Board the extent to which a
    comprehensive guideline is feasible and whether the TVA Board desires to
    adopt a policy that would employ such a guideline. Target completion date is
    December 2010. See Appendix B for TVA's complete response.

    Auditor's Response  The OIG concurs with the planned actions.

4. Review the definition of cash ratio and determine if the ratio calculation
   should include some or all amounts in the TVA Power Invoice Prepayment
   account.

    TVA Management's Comments  TVA management agreed to review the
    definition of the cash ratio and determine if any adjustments are appropriate.
    Target completion date is December 2009. See Appendix B for TVA's
    complete response.

    Auditor's Response  The OIG concurs with the planned actions.

5. Develop criteria to be used in determining whether a distributor's cash
   reserves are excessive and incorporate the criteria into the rate setting
   process.

    TVA Management's Comments  Management will make recommendations
    to the TVA Board that additional financial metrics should be employed for
    purposes of administering the resale rate provisions in Section 5 of the
    wholesale power contracts. The need to consider cash reserves will be
    included in TVA management's recommendations to the Board. A change in
    the current guidelines to include these additional financial metrics requires
    Board action. Target completion date is December 2010. See Appendix B
    for TVA's complete response.

    Auditor's Response  The OIG concurs with the planned actions.

6. Review the requirements in the power contract and develop more definitive
   guidance on how often meters should be tested.

    TVA Management's Comments  TVA management expects to soon begin
    formal implementation of a rate change that will replace end-use wholesale
    rates with a structure that will be primarily based on wholesale meter data.
    Target completion date will coincide with the rate change efforts that are
    currently under way with the distributors and is expected to be in place in
    October 2010. The power contracts do not address the frequency of meter
    testing. TVA views this as a utility standards issue for the distributor.
    However, TVA will work with the distributor group TVPPA to develop
    recommendations on common meter testing criteria. Target completion date
Inspection 2008-12007                                                          Page 10
Office of the Inspector General                                       Inspection Report


    for common meter testing criteria is October 2010. See Appendix B for TVA's
    complete response.

    Auditor's Response  The OIG concurs with the planned actions.

Other Comments From Monroe  Monroe provided comments regarding the
use of electric revenues. Specifically, Monroe does not believe that a cash
reserve of 5 to 8 percent is adequate enough for the many unforeseen costs that
face an electric utility. Monroe noted the unpredictable weather and increases in
fuel and material costs experienced during the last few years. Monroe stated
that it prides itself on having some of the lowest rates in the Valley while at the
same time maintaining adequate cash reserves that will cover any unforeseen
event without any additional borrowing or cost to its members. See Appendix A
for Monroe's complete response.

Recommendations 3 and 5 also apply to another separately issued distributor
report.




Inspection 2008-12007                                                         Page 11
APPENDIX A
 Page 1 of 4
APPENDIX A
 Page 2 of 4
APPENDIX A
 Page 3 of 4
APPENDIX A
 Page 4 of 4
APPENDIX B
 Page 1 of 6
APPENDIX B
 Page 2 of 6
APPENDIX B
 Page 3 of 6
APPENDIX B
 Page 4 of 6
APPENDIX B
 Page 5 of 6
APPENDIX B
 Page 6 of 6
